<html>
<title> - THE PATH FORWARD: KEY FINDINGS FROM THE SYRIA STUDY GROUP REPORT</title>
<body><pre>[Senate Hearing 116-141]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 116-141
 
                   THE PATH FORWARD: KEY FINDINGS 
                   FROM THE SYRIA STUDY GROUP REPORT

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON NEAR EAST,
                       SOUTH ASIA, CENTRAL ASIA,
                          AND COUNTERTERRORISM

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                              FIRST SESSION
                               __________

                          SEPTEMBER 24, 2019

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
       


                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                         ______                          

             U.S. GOVERNMENT PUBLISHING OFFICE 
 39-668 PDF          WASHINGTON : 2020                  
 
 


                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon
TODD, YOUNG, Indiana                 CORY A. BOOKER, New Jersey
TED CRUZ, Texas


              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        




             SUBCOMMITTEE ON NEAR EAST, SOUTH ASIA,        
               CENTRAL ASIA, AND COUNTERTERRORISM        

                  MITT ROMNEY, Chairman, Utah        
TED CRUZ, Texas                      CHRISTOPHER MURPHY, Connecticut
LINDSEY GRAHAM, South Carolina       BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
RAND PAUL, Kentucky                  TIM KAINE, Virginia

                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page
Romney, Hon. Mitt, U.S. Senator From Utah........................     1
Murphy, Hon. Christopher, U.S. Senator From Connecticut..........     2
Singh, Michael, Co-Chair, Syria Study Group, Washington, DC......     3
    Prepared statement...........................................     7
Stroul, Dana, Co-Chair, Syria Study Group, Washington, DC........     5
    Prepared statement...........................................     7

                             (iii)        


    THE PATH FORWARD: KEY FINDINGS FROM THE SYRIA STUDY GROUP REPORT

                              ----------                              


                      TUESDAY, SEPTEMBER 24, 2019

                               U.S. Senate,
     Subcommittee on Near East, South Asia,
                Central Asia, and Counterterrorism,
                             Committee on Foreign Relations
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Mitt Romney, 
chairman of the subcommittee, presiding.
    Present: Senators Romney [presiding], Risch, Murphy, 
Cardin, Shaheen, and Kaine.

            OPENING STATEMENT OF HON. MITT ROMNEY, 
                     U.S. SENATOR FROM UTAH

    Senator Romney. This hearing of the Senate Foreign 
Relations Subcommittee on the Near East, South Asia, Central 
Asia, and Counterterrorism, will come to order.
    Today, we are holding a hearing on the findings of the 
bipartisan Syria Study Group. The Syria Study Group was 
established by Congress, with the purpose of examining and 
making recommendations on U.S. military and diplomatic strategy 
with respect to the conflict in Syria.
    I want to recognize my colleagues, particularly Senator 
Shaheen, and my friend, the late Senator John McCain, for their 
efforts to establish this working group.
    We also wish to honor the American men and women who have 
died as part of Operation Inherent Resolve, the campaign 
against ISIS in Syria and Iraq.
    Finally, I want to thank our witnesses here today for their 
willingness to take up the task of examining an extremely 
complex problem with no easy solutions. As the report states, 
quote, ``Optimal outcomes were left behind long ago,'' end of 
quote. It is never easy to devote time and resources to a task 
whose main goal is often to prevent worse things from 
happening.
    I happen to believe that this report comes at a very timely 
point in our Nation's history. According to press reports, ISIS 
is regrouping, and that there are some 15,000 ISIS fighting 
individuals on the ground, that there are some 70,000 in 
refugee camps that are ISIS supporters. Mr. Assad has repeated 
chemical attacks, despite the fact that we once drew a red 
line. That red line seems to be more like a green light. Turkey 
is hostile to the intent toward the Kurd individuals, the Kurd-
led Syria Defense Forces, which we back, and presents a real 
threat to them. Idlib is apparently a province that is being 
held by various terrorist groups, including al-Qaeda. Iran has 
2500 troops, which are located on the ground there. Russian 
mercenaries have launched, or did launch, a surprise attack on 
U.S. troops there. So, there is a great deal swirling around 
this--at this part of the world.
    We have--as a Nation, the administration has announced its 
withdrawal. And I think one of the questions is whether this is 
a political interest that is being pursued or a national 
interest that is being pursued. And, particularly, the 
recommendations that are going to come forward from this group 
are of most interest to me and, I am sure, other members of the 
committee and the administration.
    Your report does include conclusive, thoughtful 
recommendations to address these challenges and how best to 
adjust our strategy toward Syria to minimize the threats in the 
future. And I look forward to hearing more of your thoughts 
today.
    And, with that, I will turn the time over to Senator Murphy 
for his comments and questions.

             STATEMENT OF HON. CHRISTOPHER MURPHY, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Murphy. Thank you, Mr. Chairman.
    Thank you both for joining us here today.
    The civil war in Syria has now raged on for more than 8 
years. Huge swaths of the country are decimated, millions have 
been displaced. Though the crisis may have faded from the 
headlines, it is, in part, due to the fact that the 
international community has just accepted these tragic events 
as the new normal. Syria is now where international law and the 
rules of war have gone to die. War crimes once considered 
unthinkable and outrageous--the bombing of hospitals, chemical 
weapons attacks--are now commonplace.
    The administration has declared three goals of our U.S. 
policy there: the defeat of ISIS, political settlement, and 
then the withdrawal of Iranian-commanded forces. But, at the 
same time that we supposedly want to accomplish these big 
goals, the administration has cut stabilization into Syria, 
pulled out nonmilitary officials, such as START-Forward, 
largely been MIA on negotiations in Geneva, and sought to push 
off the Syria file on our partners rather than lead. And I 
think it is an incredibly important time for us to consider 
this very, very well-timed report.
    I also think it is time for us to admit that our policy in 
Syria, over the course of two administrations, has been a 
failure, and we need to do some postmortem about the overall 
lessons learned. It is clear that our policy has failed. And, 
despite the Obama administration's significant covert military 
support for forces opposing Assad, the war has continued to 
rage for over 8 years. Our decision to provide the rebels with 
enough support to keep going, but not enough to actually defeat 
Assad, served to drag this war out and kill thousands more 
innocent people than had we limited our involvement at the 
outset.
    Now, some will argue that our mistake was not intervening 
sooner, which would have kept Russia and Iran out of the Syrian 
theater, force Assad to step down, and allowed for a political 
process to move forward. It would be nice to think that U.S. 
military interventions could accomplish these worthy 
objectives. Unfortunately, Mr. Chairman, history provides scant 
examples of where the U.S. directly intervened in a foreign 
civil war and achieved its policy goals. These types of 
interventions always sound good on paper, but often end up 
getting us bogged down into a quagmire as they confront the 
messy reality of insurgencies, imperfect partners, unreliable 
intelligence, and unintended consequences. Sometimes military 
restraint, though it may feel unsavory in the face of evil, it 
is sometimes the best policy if our action will ultimately 
create new problems than it solves. I hope we are able to talk 
about these broader realities, as well as the path forward 
inside Syria itself.
    We have a lot to discuss today, and I look forward to 
hearing from our witnesses.
    Senator Romney. Thank you, Senator Murphy.
    We have one panel with two witnesses here today:
    Michael Singh, co-chair of the Syria Study Group, is the 
Lane-Swig Senior Fellow and Managing Director for the 
Washington Institute. He is a former Senior Director for Middle 
East Affairs at the National Security Council. Previously, he 
served on the Task Force on Extremism in Fragile States.
    We also have Dana Stroul, co-chair of the Syria Study Group 
and a Senior Fellow at the Washington Institute's Beth and 
David Geduld Program on Arab Politics. She previously served 
for 5 years as a senior professional staff member for this 
committee, and spent 5 years working in the Office of the 
Secretary of Defense.
    We will now turn to our first witness. Mr. Singh, thank you 
for your willingness to testify here today. Your full statement 
will be included in the record, without objection. If you could 
please keep your remarks to no more than 5 minutes, we would 
appreciate it so that we can engage with some questions after 
that.
    Mr. Singh.

   STATEMENT OF MICHAEL SINGH, CO-CHAIR, SYRIA STUDY GROUP, 
                         WASHINGTON, DC

    Mr. Singh. Well, thank you, Chairman Romney, Ranking Member 
Murphy, and members of the committee. I appreciate this 
opportunity to present the final report of the congressionally 
mandated Syria Study Group. It was a real honor to co-chair 
this bipartisan group of experts, along with my colleague, Dana 
Stroul.
    I want to begin by talking about why policymakers and the 
American public should care about Syria and about this 
conflict. It is not something our group took for granted, 
especially in a day and age when all of us face mounting 
questions, and maybe for good reasons, frankly, about the U.S. 
role in the world. Then I am going to defer to Ms. Stroul to 
discuss the Study Group's assessments and recommendations.
    To understand U.S. policy toward Syria, I think it is 
important to reach back to the beginning of the conflict in 
2011. It began as a peaceful uprising against an autocratic 
dictator, one of many such uprisings at a time that made up the 
so-called Arab Spring, as everyone here will remember. And if 
it seemed, 8 years ago, that this uprising might usher in some 
positive change, those hopes have been dashed, to say the 
least. Syria has turned into a crucible for a complex series of 
intersecting conflicts that has reverberated, I would argue, 
well beyond the Middle East, to Europe, to the United States, 
and elsewhere.
    For years, as Senator Murphy alluded to, the United States 
helped to shelter ourselves from the fallout of the Syrian 
conflict. Many of you will remember the notion that was once 
popular that Syria could be ``cauterized,'' quote/unquote, that 
its effects would--could be confined to Syria itself, and that 
the rest of the region and the world could be spared from the 
fallout from the conflict. But, what happened in Syria did not 
stay in Syria, nor could the war's effects be easily contained.
    So, in April 2013, ISIS moved from Iraq into Syria, 
eventually established its capital in Raqqa. In August 2013, 
regime forces killed hundreds of innocent people in a chemical 
weapons attack in the suburbs of Damascus. In August and 
September 2014, American journalists, James Foley and Steven 
Sotloff, were brutally executed by ISIS. And in September 2015, 
the Russian military intervention in Syria began. And obviously 
that persists till today.
    Along the way, nearly 7 million Syrians were driven to 
neighboring countries or to the shores of Europe as refugees. 
Today, Syria poses a spectrum of threats to American interests, 
I would argue. It provides safe haven to some of the world's 
most dangerous terrorist groups. Idlib, for example, is home to 
the greatest concentration of foreign fighters since 
Afghanistan in the 1980's, U.S. officials have said. ISIS has 
been driven from the territories it once controlled, but it is 
returning now as an insurgency, as you said, Senator Romney.
    Iran has exploited the conflict to entrench itself in 
Syria's economic and social fabric, and would have turned Syria 
into a forward base for its missiles, were it not for Israeli 
airstrikes. But, those strikes by Israel have come with a cost 
in the increased risk of war between Iran and Israel, and we 
have seen that conflict between the two spread, in recent 
months, elsewhere in the region.
    Russia, too, has exploited this conflict through its 
intervention in Syria. Moscow has established itself, brutally 
and cynically, as a major player in the Middle East for the 
first time in decades. U.S. partners across the region are 
taking Russia's new role seriously, we would judge, and have 
expanded their ties with Moscow across the board.
    The list goes on. The Assad regime and its partners have 
smashed every norm of conflict by targeting hospitals and 
schools, deploying chemical weapons and barrel bombs, and using 
starvation and mass murder as weapons of war. Syrian refugees 
have roiled politics in Europe and strained economies 
throughout the Levant and beyond.
    At every point at which we hope to shelter ourselves from 
this conflict's ill effects, it has only become more 
deleterious to our interests, and it could yet grow worse. We 
could see a massacre and new exodus of refugees in Idlib, where 
you have 3 million people holed up with forces on every side. 
You could see a new incursion by Turkey that brings it into 
conflict with our Arab and Kurdish allies. You could see a 
broader war between Iran and Israel. Or you could see a renewed 
civil war in the areas where the regime has retaken control, 
but that control is very tenuous, frankly.
    The conflict in Syria matters to America, whatever one's 
preferred strategic framework, I would argue. This is a 
conflict where our two great strategic concerns--international 
terrorism, on the one hand; great-rival--I am sorry, great-
power conflict, on the other, come together. It is not a 
conflict we can simply contain or ignore. Our group was 
unanimous in that judgment. But, we were also unanimous in our 
view that there remains much that we can do, as the United 
States, to help shape the conflict's outcome and protect our 
interests, which Ms. Stroul will go into in more detail.
    I do want to take the few seconds that remain to me just to 
say thank you, first, to Senator Shaheen, for her leadership in 
creating this group; to Congressman Thornberry, on the House 
Armed Services Committee, for appointing me; and to the 
Republican Caucus, for the honor of being named co-chair of the 
group. Thank you, to the congressional leadership for naming, 
frankly, such thoughtful and expert colleagues to the Syria 
Study Group. And I want to echo, Senator Romney, your thanks to 
all those Americans, civilian and military, who have fought, 
and especially those who have died in the course of what I 
think is an important conflict.
    To me, the real value of this report, just to conclude, is 
that it represents a bipartisan consensus. And, to me, in 
Washington today, that is no small thing.
    Thank you.
    Senator Romney. Thank you, Mr. Singh.
    Ms. Stroul.

    STATEMENT OF DANA STROUL, CO-CHAIR, SYRIA STUDY GROUP, 
                         WASHINGTON, DC

    Ms. Stroul. Chairman Romney, Ranking Member Murphy, and 
members of the committee, thank you for inviting us to present 
the final report of the Syria Study Group.
    Last year, Congress directed the Syria Study Group to form 
an assessment of the military and political status of the 
Syrian war and provide recommendations for the way ahead. 
Today, we are delivering a document that represents the 
consensus of all 12 members, and, echoing Mr. Singh, that is no 
small feat. This is a bipartisan plan for action.
    Here are our top-line conclusions:
    Number one, Assad has not won the war. Areas under his 
control are riddled with crime and poverty. Civilians are 
subject to conscription, forced disappearances, and execution. 
Conditions are set for the next phase of conflict.
    Two, the political process is stalled. Yesterday's 
announcement on the formation of a constitutional committee may 
hold promise, but it is too soon to tell. To date, Assad has 
not demonstrated a willingness to make meaningful compromises. 
His offensive in Idlib makes it painfully difficult to build 
momentum toward a negotiated settlement.
    Three, ISIS is not defeated. The U.S.-led military effort 
successfully pushed ISIS out of the territory it held, but the 
group has transitioned to an insurgency. Meanwhile, al-Qaeda is 
still active in Syria.
    Four, the ISIS detainee population is a few prison breaks 
away from reconstituting the next caliphate. The U.S.-supported 
Syrian Democratic Forces are resource-strained in securing this 
population.
    Five, Iranian boots are not leaving Syria, despite U.S. 
sanctions and Israeli strikes. In addition to its military 
campaign, Iran is entrenching itself in Syria's economic and 
social fabric for long-term influence.
    Six, Russia has exploited its intervention on behalf of 
Assad to contest U.S. influence and leadership.
    Seven, U.S.-Turkey ties are immensely strained, and U.S. 
support for the Syrian Defense Forces is a leading factor. A 
Turkish military incursion into northern Syria will provide 
ISIS the opportunity to reconstitute. Joint U.S.-Turkey 
military patrols in a mutually agreed-upon area prevent this 
scenario for the time being.
    Eight, the scale and scope of human suffering over the 
course of this conflict have set a depraved new standard for 
the 21st century. The parties responsible--Assad, Iran, and 
Russia--have faced no meaningful consequences for the use of 
chemical weapons and barrel bombs, torture, starvation, and 
intentional targeting of civilian infrastructure.
    In forming our recommendations, our group considered the 
limited appetite of the American public for significant 
increases in military or financial investments. Therefore, we 
propose a strategy that strengthens key elements of the current 
approach, calls for reinvigorated U.S. leadership, and 
prioritizes resolving the underlying Syrian conflict.
    The tools for this strategy are already on the table--a 
U.S.-led international coalition against ISIS, limited U.S. 
forces on the ground, capable local partner forces, sanctions, 
assistance, and diplomacy--but, effective and appropriate 
resourcing of these tools are needed to give them teeth.
    To start, we recommend the following steps: reverse the 
U.S. military withdrawal from northeastern Syria; strengthen 
U.S. sanctions on Assad and his backers, and make them 
multilateral; lead ongoing diplomatic isolation of the Assad 
regime; spend the $200 million in U.S. stabilization funds 
already approved by Congress; continue to withhold 
reconstruction aids to the parts of Syria under Assad's 
control.
    Concurrently, the U.S. must continue to provide 
humanitarian assistance to Syrians inside and outside of Syria 
while shoring up vulnerable refugee-hosting partners and host 
communities on Syria's borders.
    Our group acknowledges that this strategy will not lead 
overnight to the elimination of ISIS, the removal of Iran from 
Syria, or a political settlement that ends the war. But, this 
mix of tools, combined with consistent, high-level, and 
credible American leadership, will provide leverage to shape an 
outcome protective of core U.S. national security interests 
when conditions are conducive for a negotiated settlement.
    This is the end state for Syria envisioned by our group: a 
Syrian government viewed as legitimate by its population, 
capable of ending dependence on foreign forces, and able to 
eliminate the threat from terrorist groups. Syria citizens 
would, therefore, need to not fear the Assad regime, Russia, 
Iran, or ISIS. Such an end state, in our view, will require an 
updated political and social compact in Syria.
    To conclude, just a few thank-you's. The work of the Syria 
Study Group would not have been possible without the support of 
Congress, and, in particular, Senator Shaheen. The 12 Members 
of Congress who named members to the group put together a panel 
of deep expertise and committed colleagues. Thank you. My 
personal thanks to Senator Schumer for appointing me to the 
Democratic Caucus, for making me the Democratic co-chair. The 
USIP team facilitating our group has been nothing short of 
tremendous. In particular, thank you to Executive Directive 
Mona Yacoubian and her team. And finally, my personal thanks to 
my fellow co-chair, Mike Singh. He has been a partner, as well 
as friend, as I balanced my role in this group and welcomed my 
second child about 12 hours after our first set of meetings. 
The child was extremely timely. And I thank him for that, as 
well.
    [Laughter.]
    [The prepared statements of Mr. Singh and Ms. Stroul 
follow:]

        The Prepared Statement of Michael Singh and Dana Stroul

    Chairman Romney, Ranking Member Murphy, and members of the 
Subcommittee on the Near East, South East, Central Asia, and 
Counterterrorism, we are pleased to present the report of the Syria 
Study Group, which represents a bipartisan, consensus assessment of the 
conflict in Syria and recommendations for U.S. policy.
    This report is a roadmap for bipartisan action. Its core 
assumptions are (1) that the war in Syria is far from over, (2) that 
the United States retains leverage to shape the outcome of the multiple 
conflicts still ongoing in Syria, and (3) that the interests and 
security of the American people are best served by an engaged U.S. 
policy. Indeed, Syria is a conflict where the two great U.S. strategic 
concerns--the aggression of revisionist powers and the threat 
international terrorism--come together.
    The Syria Study Group acknowledges the limited appetite of the 
American public for an increase in U.S. military or financial 
investment in Syria. Therefore, we recommend that the United States 
strengthen key elements of the current approach to Syria by investing 
appropriate levels of resources, while elevating resolution of the 
Syrian conflict as a U.S. national security priority. The tools are 
already on the table: a U.S.-led international coalition of the 
willing, limited U.S. boots on the ground combined with U.S. military 
enablers and capable local forces, sanctions, assistance, and 
diplomacy. What is needed is effective support for and appropriate 
resourcing of these tools.
    The Syria Study Group recommends that the U.S. military withdrawal 
from northeastern Syria be reversed and the military mission set 
updated; that U.S. sanctions on Assad and his backers be strengthened 
and be made multilateral to the extent possible; that diplomatic 
isolation of the Assad regime continue; that U.S. stabilization 
assistance already authorized and appropriated by Congress for post-
Islamic state (ISIS) communities in Syria be spent; and that 
reconstruction aid to the parts of Syria under regime control continue 
to be withheld. The U.S. must concurrently continue to provide 
humanitarian assistance to Syrians inside and outside of Syria, while 
shoring up vulnerable, refugee-hosting partner countries and host 
communities on Syria's borders.
    The key to the approach that our Group recommends is U.S. 
leadership and prioritization of the international response to the 
conflict in Syria. U.S. allies, partners, and adversaries must 
understand unequivocally that the U.S. is not disengaging from Syria 
militarily nor diplomatically. This requires engagement on Syria at the 
highest levels of the U.S. Government, and consistent oversight from 
Congress.
    Our group acknowledges that this strategy will not lead overnight 
to the elimination of ISIS, the removal of Iran from Syria, or a 
political settlement that ends the war. The obstacles the United States 
and our allies face are formidable: the Assad regime remains adamantly 
opposed to any compromise which might allow progress toward a political 
resolution; Russia cannot unilaterally deliver a political win for 
Assad, but appears to remain committed to its client despite 
considerable pressure; Iran has suffered setbacks in the form of 
sanctions and Israeli strikes, but remains determined to entrench 
itself in Syria for the long term; Turkey and our allies in the Syrian 
Democratic Forces (SDF) may yet renew their conflict despite U.S. 
efforts to devise a security mechanism to prevent such an outcome, and 
tensions between the SDF and local populations are reportedly rising; 
and ISIS, though down, is not fully defeated, and already shows signs 
of reorganizing as an insurgency.
    Beyond these challenges, the scale and scope of human suffering 
over the course of 9 years of conflict have set a depraved new standard 
for 21st century conflict--hundreds of thousands dead, millions missing 
or displaced, and waves of refugees straining Syria's neighbors and 
Europe. The parties responsible--the Assad regime, Iran, and Russia--
have faced no meaningful consequences for their use of chemical weapons 
and barrel bombs, torture, starvation, and intentional destruction of 
civilian infrastructure.
    The United Nations Security Council has been rendered ineffectual 
in galvanizing international action in response to Assad's atrocities 
by Russian and Chinese protection. These issues are rarely elevated or 
prioritized in diplomatic discourse or multilateral gatherings on 
Syria, but remain profoundly important to the stakeholders in the 
conflict who have suffered the most: the Syrian people. Without 
meaningful attention paid to those issues most important to civilians--
protection, accountability, justice--Syrian refugees will not 
voluntarily return home, Syrians remaining in their country will lack 
the security to rebuild their lives and livelihoods, and no political 
process will be sustainable.
    Our group was unanimous in its view that these harsh realities are 
not simply far-off tragedies, but events that have consequences for 
U.S. national security today and that will reverberate far into the 
future, in the Middle East and beyond. We were also in agreement that 
the United States has compelling interests at stake in Syria and the 
tools necessary to advance them, and that U.S. efforts can serve not 
only American national security but also alleviate the suffering of 
those caught up in this conflict and deter those abetting it. 
Overcoming the obstacles the U.S. and our allies face in Syria will 
require patience and commitment; nevertheless, over time, we believe 
the United States has the tools and influence to achieve progress, and 
to ensure that it is well-positioned to safeguard our interests even 
should that progress prove elusive.
    The Syria Study Group's report, which provides our full and 
detailed assessments and policy recommendations, is attached to this 
statement. We hope that the report can serve as a bipartisan guide for 
action to those ends.

    [The material referred to above and below can be accessed at the 
following url:]
    https://www.washingtoninstitute.org/uploads/Documents/testimony/
Syria-Study-Group-final-report-2019.pdf

    As co-chairs of the Syria Study Group, we wish to thank Congress 
for supporting the creation of this Group, and special thanks to 
Senator Shaheen for her leadership in ensuring that the Syria Study 
Group legislation became law. We also thank the U.S. Institute of Peace 
(USIP) for its facilitation--USIP plays a unique role at the nexus of 
U.S. thinking and doing across many of the most complex global 
challenges.
    Finally, we express our appreciation to the members of the Syria 
Study Group for their collegiality, contributions, and willingness to 
engage thoughtfully and critically with each other and with our 
interlocutors on this vital topic.

    Senator Romney. Thank you so much for both of your comments 
today.
    I am going to ask a few questions, and then we will turn to 
the Ranking Member, and then Senator Shaheen.
    You mentioned briefly what the end view might look like. 
And I would love to have you elaborate on that. If you do not 
know where you are going, any road will get you there. And I am 
not sure we have a sense of where we are headed, where--what we 
hope to have done, what success would look like. And perhaps 
there is near-term success and longer-term success, but what do 
you think is a realistic objective for our involvement in 
Syria? Because, Mr. Singh, for instance, described the kinds of 
things that might happen, some calamitous outcomes. What is the 
positive outcome that we--and a realistic, positive outcome 
that our involvement in Syria should be aimed to achieve? And 
you--either one of you can take, and both, can comment on that, 
if you would like.
    Ms. Stroul. Thank you for that question, Senator.
    So, first, we should highlight what we are not saying is a 
realistic outcome at this point in time. What we are not saying 
is that the removal of Assad as--and his regime in Damascus, is 
a realistic objective for U.S. policy at this point in time. 
So, what we are doing is calling, not for removal of Assad, but 
for meaningful changes in regime behavior as a way to address 
the underlying causes of conflict. The history of Bashar al-
Assad in Syria is collaboration and cooptation with al-Qaeda. 
We know that he has used extremists, including ISIS, released 
them from his prisons when it suited his purposes, and, in the 
past, deployed them against U.S. forces in Iraq. So, that is 
number one.
    And, number two, what we are talking about, in terms of 
defeating ISIS, is enabling the post-ISIS communities in north 
and eastern Syria the time and space to demonstrate an 
alternative model of governance to the Assad regime.
    So, some of the clear changes that the Assad regime could 
implement that would suggest that he was open to meaningful 
concessions: ending force conscription, revising properly laws 
so that all Syrians would have access to real estate and to 
rebuild their lives and livelihoods in Syria, obviously to end 
arbitrary detentions, torture, release political detainees, and 
to engage in a meaningful way in the U.N.-facilitated political 
process.
    Mr. Singh. I would just add to that, Senator, that, you 
know, I think the only party in this conflict that has a clear 
vision for how they see it ending is Bashar al-Assad. He 
believes that he can reconquer all of Syria. I do not think 
that an independent analyst would say that he has the ability 
to do that, even with Russia and Iran's help, especially not 
while U.S. forces and our partners are there on the ground.
    So the question, I think, is, How do you persuade him and 
those backing him that that is not a realistic option for them 
and that they have to accept compromise? Because right now, it 
does not seem that President Assad is willing to brook any kind 
of compromise when it comes to retaking Syria and sort of 
reestablishing his absolute rule.
    And so, the U.S. strategy, as we can see it now, is aimed 
at trying to put pressure on him to get him to accept that 
reform is needed. My own view, I think the view of the group, 
is that that is the right strategy, but it is going to take 
more concerted efforts and leadership by the United States. As 
long as there is a question, for example, as to whether we are 
really committed to doing this, whether we are really committed 
to maintaining, for example, our military presence, even though 
it is quite small in Syria, I think that may give him the 
belief that he can wait us out.
    Senator Romney. Is your view that there will--that there--
our objective should be, or the realistic objective is, that 
there would be a unified Syria, with representation of various 
groups and minorities, and so forth, some kind of a coalition 
government, of kinds--of sorts? Or is it your view that there 
need to be, if you will, two parts of Syria--one part held by 
one group of people, one part held by the other?
    Mr. Singh. Well, I would say, ultimately, Senator, what we 
would hope is that that choice would be left to the Syrian 
people themselves, rather than something that is imposed, you 
know, by us or by the international community.
    I think that what we need to do--and this is sort of a--the 
broad strategy that the report lays out--is to have a strategy 
in place which aims at bringing Syria back together with a 
reformed government, maybe a decentralized system of 
government--so, for example, our Kurdish and Arab allies in the 
northeast would have a greater say in how they are governed--
but that we also need to be postured in a way that allows us to 
protect our interests and keep and consolidate our gains, even 
if that kind of settlement proves elusive. That is, sort of, 
how we think the strategy needs to be pitched when it comes to 
this question.
    Senator Romney. Thank you.
    Let me turn to Senator Murphy for his questions.
    Senator Murphy. Thank you both for all your work on this. 
Thanks, to Senator Shaheen, for instigating it.
    So, it seems as if, over the course of U.S. policy with 
respect to Syria, we have had two overarching goals. One is, of 
course, to end the fighting. This is a war that has absolutely 
decimated the Nation and the families that live there. And, 
second, to delegitimize Assad. At one point, our stated goal 
was his removal. Today, I think you reflect a consensus within 
the administration that that may be unrealistic, but that we--
but legitimizing him comes with great risk, given the abhorrent 
behavior that he is engaged in.
    Those two goals, to me, seem mutually exclusive. And my 
worry is that the recommendations that you are making to us are 
just an invitation for the status quo to persist for years and 
years and years. If you accept that Assad is hanging around, 
then I am not sure why a limited U.S. military presence, a 
relatively slight uptick in humanitarian focus and diplomatic 
engagement is going to correct for his behavior, given that his 
patrons, who are going to stick with him through thick and 
thin, are making no such demands on him. And, in the 
foreseeable future, it does not appear as if we are going to 
have the ability to change Russia and Iran's mind. I have heard 
before this panel, over and over and over again, that Putin 
does not really care about Assad, that ultimately he will get 
him to do the right thing. That has never proved to be the 
case.
    And so, address my worry that your report is just a slight 
variation on U.S. policy, that there is no real pressure point 
in your proposals that will change Assad's behavior, and, in 
the end, we are faced with a decision: we either apply enough 
pressure to overtake the Assad regime, or we accept that Assad 
is going to control this country and we pursue a policy to make 
the inevitable happen sooner rather than later to preserve the 
lives of thousands of people who will lose them if this just 
drags on and on.
    Ms. Stroul. Thank you, Senator, for that question.
    So, the first thing that--we asked ourselves the same 
questions about the policy. So, first of all, in advocating for 
continuing the military presence in northeastern Syria, we see 
this as a decisive form of leverage--if not right this minute, 
down the line--because northeastern Syria, which we hold 
through the SDF, is resource-rich, both from hydrocarbons and 
agriculture; and, number two, another factor to consider here 
is, What are Russia's objectives? And Russia's objectives, as 
we understand them in our very wide consultations, is not the 
status quo, but actually to legitimize Assad and rehabilitate 
and reintegrate him into the international community, and to 
demonstrate to the international community that Syria is 
normalized by refugee returns and economic recovery. None of 
that can happen with the current U.S. tools on the table.
    Most governments are not returning embassies to Damascus, 
given the status quo. Most that would engage in reconstruction 
contracts in Syria are not going to do that, for threat of U.S. 
sanctions. Russia knows that they need reconstruction 
assistance and aid that comes not just from the United States 
bilaterally, but from European governments, from international 
financial institutions, all of which, at this point in time, 
are following the U.S. lead in holding the line on those 
issues.
    So, what we are saying is, over the time horizon, at this 
point in time, unlikely to change Assad's calculus, but does 
Russia tire of him and his regime and its current behavior at 
some point when it wants to be done, when Putin wants to be 
done with this current state of play in Syria? Perhaps.
    And we also considered the alternative, which is, if we--
that the withdrawal of U.S. forces, or of just allowing--
acknowledging that he is going to stay, and not insisting, 
through our nonmilitary tools, on regime behavior change, would 
that actually save lives? And our conclusion was no, it will 
not. If U.S. forces leave northeastern Syria, we think Assad 
will go in with his security forces, with Russia and Iran, so 
we would have another Idlib-type situation on the local 
partners--have fought and bled and died in the counter-ISIS 
fight with us. And, number two, all of the Syrians living under 
his control right now also are not looking to him as a 
legitimate form of government.
    I am going to give the rest of the time to Mike.
    Mr. Singh. I would just say, Senator, I want to--I would 
agree with one of your premises, but challenge another, which 
is to say, I think you are right that the Syria Study Group did 
not look at the administration's strategy and say, ``This is a 
fundamentally flawed strategy. We need a new one.'' We looked 
at the alternatives, things like let us just throw up our hands 
and leave, let us accept Assad somehow and kind of just, you 
know, reengage with him and accept that he is there to stay. 
And we found them wanting. We found them worse than the 
strategy that we are pursuing.
    What we did say about the strategy, though, is that, number 
one, it is hampered by our own seeming kind of hesitation about 
it, you know, this kind of--these sharp reversals and twists 
and turns, where, you know, today we are withdrawing, now we 
are back, and so forth. That has led other countries, which 
actually also support the strategy--and we heard from 
Europeans, from our allies in the region was, they also think 
it is the right strategy, they just wonder if we are committed 
to it. That is a problem. Second was the sort of matching of 
ends and means. You know, if we have these goals to, say, keep 
ISIS from returning to northeastern Syria, we have got to spend 
the stabilization money.
    Where I would challenge your premise, Senator, though, is 
that I do not think our goal is to delegitimize Assad, per se. 
I think Assad has delegitimized himself. We did not take any 
territory from Assad. He lost it to his own citizens, in many 
cases, or it was taken--or it was lost because he could not 
govern it legitimately.
    Senator Murphy. I----
    Mr. Singh. I think what we are doing is, we are saying, to 
Russia, to Assad, and so forth--they want us to recognize his 
legitimacy, and we are saying, ``Here are the conditions. We, 
the--not just the United States, but United States and our 
allies elsewhere, under which we would be doing that.''
    Senator Murphy. Yes, that, maybe, is not put well. I think 
our purpose is not to be seen as endorsing the illegitimate 
actions that he has taken.
    My only quick comment is that I agree that both of the 
alternatives--withdrawal or engagement--are unsavory. I just 
worry that we will be back here with another Study Group Report 
recommending another slight variation on U.S. policy after 
thousands more have died.
    And, to Ms. Stroul's point about Russia, again, I have 
heard this before, that Russia wants to engage, wants to 
legitimize, wants to allow for Syria to reenter the global 
community. I think their actions in Venezuela, in Ukraine, and 
in Syria speak more likely to their goal of constant chaos than 
the reintegration of their partners into the world community. 
And I worry that this may be a misread of their intentions.
    Thank you, Mr. Chairman.
    Senator Romney. Thank you.
    Senator Shaheen.
    Senator Shaheen. Well, first of all, thank you both very 
much. Thank you for your great work as part of the Study 
Committee, and for the leadership that you have provided 
after--it took a very long time to get the report underway, so 
it is very satisfying to see the actual product and to hear you 
all talk about the recommendations in the report.
    One of those recommendations, I am pleased to see we are, 
hopefully, in the process of actually accomplishing. There is 
language in the defense authorization bill for a Syria--for a--
an ISIS detainee coordinator, which is something that is 
recommended in the report. So, hopefully, that will get through 
without any trouble. And I think it is sorely needed.
    Last year, when Senator Graham and I visited, we--Syria--we 
went to several ISIS detention facilities in Hasakah, Ayn Issa, 
and Manbij. And--actually, it was Kobani, not Manbij--and, at 
that time, there were an estimated--between 500 and 1,000 
foreign fighters in those camps. Today, the number has jumped 
to over 200--2,000. And that does not include all of those 
folks who are in detainee camps; the largest one, close to the 
Iraqi border. I was in Iraq in April, and they are very 
concerned about what happens in that camp, with--not just with 
any fighters who may be in the camp, but with all of the women 
and children who are being radicalized. So, what happens with 
those detainees is a huge concern, and what we have heard from 
the Syrian Democratic Forces is that they do not have the will 
or the resources to continue to take ownership of the detainee 
facilities.
    So, can you speak to what happens if the international 
community continues to refuse to repatriate the foreign 
fighters that have come from the West, and what the potential 
consequences of that are? Either one of you, or both.
    Ms. Stroul. Thank you so much for that question.
    One--the issue of ISIS detainees was exceptionally 
alarming, across the board, to all members of the group, and we 
explicitly dedicated a significant part of the report to raise 
the alarm on this issue.
    You asked a question, Senator, about the 2,000 foreign 
fighters. And if they are not repatriated, there are two 
options. They either stay to fight another day in Syria, or 
they go to another theater of war to fight another day there. 
Those are the two options. The Syrian Democratic Forces not 
only lack the will, but they lack the capability. They have 
never dealt with a challenge like this before. We are providing 
some technological assistance.
    Senator Shaheen. Right.
    Ms. Stroul. So, the bottom line is, this is a threat that 
is only going to get worse. There is no possibility that they 
stay indefinitely in super-max-like facilities in northeastern 
Syria, especially given the uncertainty about the U.S. military 
commitment, going forward, and whether or not the SDF will stay 
together and committed to protecting these facilities.
    And I would just like to add, since you raised this, the 
al-Hol IDP camp is family members of ISIS detainees, and that 
still does not count the tens of thousands of Iraqi and Syrian 
ISIS fighters----
    Senator Shaheen. Right.
    Ms. Stroul.--in other popup facilities all over 
northeastern Syria under SDF control. They do not have proper 
facilities. Often, these are repurposed schools or other 
civilian structures. Populations are being mixed. The 
situation, when some of these fighters are repatriated to Iraq, 
is not positive. Human Rights Watch has done incredible work on 
what happens when they go back to Iraq. And in Syria also, it 
is just regenerating this issue for another day if we do not 
have a consolidated and internationalized strategy now.
    Senator Shaheen. And let me just--before you continue, Mr. 
Singh, let me just point out that, at least when we were in 
Iraq earlier this year, the Iraqis were not anxious to take 
back those Iraqis who are being held in the camps, because of 
all of the problems that they bring with them.
    Mr. Singh. So, Senator, I think that is a very important 
point, and it sort of gets to what I think is a larger issue. I 
mean, I served in the George W. Bush administration, and I do 
not think anyone wants to see a repeat of the Guantanamo 
experience. We all had, obviously, a very difficult time with 
that issue. But, the fact is, I feel as though we do keep 
running up against this type of issue, where we have these 
detainee populations, we know that we are, sort of--you know, 
that dangerous people are under detention, but our options for 
prosecuting them, repatriating them, are limited, and we are 
approaching it in an ad hoc way.
    I will just say that I think this issue requires a sort of 
broader look, not just by the United States, but by the United 
States and our allies, because we have--despite having dealt 
with it now since, really, 9/11, we do not really have good 
solutions to it, I would say.
    The other thing we do not have good solutions to, just very 
briefly, is this question of deradicalization. You have these 
70,000 mostly women and children--most children, frankly--in 
the al-Hol camp, who have grown up in the worst possible 
conditions. And the fact is that we do not really know how to 
conduct this process of deradicalization. And that is, I think, 
again, something that is--that behooves us to get on top of.
    Senator Shaheen. Thank you, Mr. Chairman.
    Senator Romney. Thank you.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And thank you for this report. Very important topic.
    I want to ask you a question about a recommendation that is 
contained at page 47. One of the recommendations deals with 
trying to reduce or end Iranian influence in Syria, and 
eventually expel, in phases, Iranian influence in Syria. And 
you have a recommendation, ``More specifically, the United 
States should continue to support Israeli strikes on Iranian 
assets inside Syria.'' Talk to--explain that phrase. So, talk 
to me about what you guys know about U.S. participation in 
Israeli strikes in Syria, and what you mean by the 
recommendation that we continue to support those.
    Mr. Singh. Thank you, Senator.
    So, yes. Look, the Israelis believe, and I think that we 
agree, having sort of gotten some briefings from them, that 
these strikes have been pretty important in limiting Iran's 
activities inside Syria.
    Senator Kaine. And describe the strikes. Because we have 
not had any testimony, in this committee or the Armed Services 
Committee, about U.S. participation in Israeli strikes in 
Syria. This is not a classified report, and I am just curious 
as to describing what you know about those.
    Mr. Singh. Right. And all I can tell you is what I know 
from open sources, Senator, chairman we were not privy to any 
classified information. I should say that from the outset. But, 
it has been pretty clear that the Israelis have focused on 
striking systems, trying to prevent the Iranians from creating 
a sort of missile network inside Syria that would allow them to 
create what they--the Israelis would consider a second or 
third, even, missile-to-missile--surface-to-surface, rather, 
front against them from Iran.
    When it comes to U.S. support, Senator, I think what we 
mean there is more diplomatic support, political support. I do 
not know of any actual--what any kind of technical or military 
support we may have, or may have not, provided. But, I think 
the idea that, you know, we are not asking the Israelis, for 
example, to back off their coordination with Russia, we are not 
asking them to back off these strikes, because we see these as, 
frankly, probably the only way, so far, that Iran has been 
successfully deterred in Syria. I think sanctions can play a 
role. I think political pressure can play a role. But, there 
is--it seems to me that Iran is pretty determined to entrench 
itself as deeply as it can in Syria--not just Syria, of course, 
also throughout the region, in Lebanon and Iraq and elsewhere.
    Senator Kaine. So, other than public-source information, 
you have not been briefed on U.S. support--military support for 
the strikes that you referenced?
    Mr. Singh. We have not, Senator, no.
    Senator Kaine. Let me ask you about the humanitarian 
situation--the horrible humanitarian situation in Idlib. We 
have, from this committee, a bill that is pending on the Senate 
floor, the Caesar Syria Civilian Protection Act, that I hope--
and it is bipartisan, and it is strongly supported by the 
committee--I hope we might move to act on it within the Senate. 
But, what additionally might we do in Congress to deal with the 
humanitarian crisis in Idlib and try to ease civilian 
suffering?
    Ms. Stroul. Thank you for that question, Senator.
    So, first of all, just a note on the Caesar bill. This bill 
is incredibly important to the Syrian and Syrian-American 
community who are invested in U.S. leadership on this--on the 
issue of Syria. And what the Caesar bill does that is different 
from the existing laydown architect of sanctions is, it would 
impose secondary sanctions on those that back the backers of 
the Assad regime. So, we are getting at those who knowingly 
assist Iraq, Russia, Russian mercenaries, like Wagner, Iranian 
militias, et cetera, those who may be considering investing in 
Syrian telecommunications, reconstruction, et cetera. If that 
bill passes, it sends a signal to all of that secondary and 
tertiary community to not engage. And it, again, holds the line 
against normalizing, rehabilitating, or legitimizing Assad and 
his regime or his backers.
    And, in terms of the humanitarian situation in Idlib, 
number one, our report calls for stepped-up diplomatic pressure 
and leadership. Clearly, through the Astana process or through 
Russian-Turkish negotiations, there has been no pressure on 
Assad compelling enough for him to stop his offensive. There 
are 3 million civilians plus a ``Dog's Breakfast'' of terrorist 
groups in Idlib. The consequences of continued offensive or a 
decision to take the entire province would be a new 
humanitarian catastrophe. Our report also talks about the 
reliable and credible threat of military force, not 
unilaterally, but in partnership with allies and partners, if 
the assault on civilians and civilian infrastructure continues.
    Mr. Singh. I am--I would just add to that, Senator, that it 
seems to me that we face a situation where, should the Assad 
regime and the Russians press their attack on Idlib, you could 
have a new exodus of refugees. I am not sure that those NGO's 
and aid organizations that are there across the border in 
Turkey or in Idlib are sufficiently funded or positioned to 
handle that. I think that that is going to require more funding 
from the international community. I think it is going to 
require some pressure on the Turks to let people through, not 
just the Turkish border, but there is also that Turkish-
controlled region of Syria next to the Idlib Province. And that 
is something where I think Congress can play a role.
    And then, finally, as we pressure countries like Turkey, 
which have taken a huge burden of refugees, I think we have to 
do our part, as well, here in the United States. And I am 
pretty concerned at reports that next year's refugee admissions 
might be even lower than this year's refugee admissions. I 
think that is something that is just in our national interest 
to reverse.
    Senator Kaine. Thank you.
    Thank you, Mr. Chair.
    Senator Romney. Thank you.
    We have time, I think, for another round of questions.
    The real Chairman has--of the entire Foreign Relations 
Committee, has arrived, but he wants to listen in for a while 
before he might ask any questions, or just to make sure I do 
not totally mess up. So, I will begin with another round, here, 
of my own.
    First of all, you speak about ISIS regrouping, about the 
70,000 or so that are in camps that are being radicalized. I 
sometimes wonder why they are successful in radicalizing and we 
are not successful in normalizing, and why we do not have the 
capacity, apparently, to take a group of young people and 
parents, and so forth, and help them decide to become more 
accepting of others, more willing to provide freedoms to their 
fellow individuals.
    But, my question is whether you have perspectives on how we 
can, if you will, help prevent ISIS from regrouping, as you 
suggested, and reestablishing itself, not necessarily based 
upon territory, but reestablishing itself as a weapon against 
the United States, against our citizens, against our friends 
around the world. What can we do--what should we be doing 
differently that we are not doing to combat the reemergence of 
ISIS?
    Mr. Singh. Well, Senator, I think there are a few things we 
can do. And there is--I should say, that there is an Iraq part 
to this answer, which maybe I will leave aside, since we are 
the Syria Study Group. But, it is important to note that, I 
think, for ISIS's purposes, ISIS considers Iraq and Syria sort 
of part of one contiguous theater of operations. And so, what 
happens in Anbar, what happens in Iraq, and what the Iraqi 
government does is also important. And I think that is 
something that this committee will need to pay attention to.
    Inside Syria itself, I would point to, let us say, three 
things that we need to, perhaps, do better than we have, or 
keep doing and make sure we do not stop. One is just keeping up 
the counterterrorism pressure on ISIS using U.S. forces. And 
so, that requires maintaining a military presence that can also 
then serve as an enabling presence for the air campaign which 
we have been carrying out. If that pressure eases, every 
military brief or every counter--every sort of CT brief or--who 
we spoke to, I would say, that will give new life to ISIS. And 
so, we need to keep that pressure on, keep the military 
presence.
    Second, I think stability in northeastern Syria, 
stabilization, reconstruction in northeastern Syria, is very 
much in our interest, because that will help keep ISIS from 
returning. I think one reason that we are not good at 
deradicalization is that it really needs to be done by the 
communities themselves in northeastern Syria. Those communities 
are smashed to bits. And if there is not some stability and 
reconstruction, I do not think they will be able to take people 
back and sort of help them with their reintegration/
deradicalization process. And they are the ones who really need 
to do it, with the help of some outside organizations.
    Third, I do think we need to put pressure on our allies in 
the SDF, who are great, sort of, fighting partners for us, to 
now transition to be great, sort of, governing partners, not 
for us, but for the local communities there. There are reports 
of Kurdish-Arab tension that we received. There are, I think, 
some things that we need the SDF to do to really sever and 
disavow its links to the PKK, for example, to be inclusive in 
the way they govern so that you do not have discontent among 
local populations that ISIS can capitalize on.
    Senator Romney. Yes, thank you.
    Ms. Stroul. I am just going to add a few additional things 
to what Mike said.
    So, one consistent success across the previous 
administration and this administration is that the 
International Coalition to Defeat ISIS would not--was not just 
about U.S. military pressure and activities by the SDF, but all 
these other lines of effort, as well: counterterror financing, 
working on foreign fighters, shoring up information-sharing in 
intelligence and law enforcement channels across Europe, 
looking at the borders, where ISIS fighters come and cross and 
return, these issues, and also combating ISIS ideology, use of 
the Internet, and media operations. So, these are other--in 
addition to just looking at the Syria file, if we are talking 
about ensuring that ISIS is not able to reconstitute, we need 
to keep up pressure through the coalition that already exists 
on all of these other lines of effort, as well.
    And finally, it goes without saying that the--one of the 
reasons that ISIS was able to move so fast across Syria is 
because it is a weak, ungoverned area without a legitimate 
government in Damascus. So, again, this goes back to, if the 
underlying causes of the conflict in Syria are not, at some 
point, addressed and resolved, ISIS will always have a pool of 
recruits in Syria.
    Senator Romney. Yes. Thank you.
    I would note that, when there is a tragedy which occurs, 
where--in a different theater altogether, which is with regards 
to the Gaza Strip, for instance, where perhaps there is a--an 
attack that leads to a civilian death, or deaths, that that 
makes world news, that there are visual images of this. And 
yet, Assad is continuing to use chemical weapons to attack his 
own people in large numbers. This goes on and on and on. 
According to your report, it has not ceased. It is perhaps even 
greater than it has been in the past. What do we need to do to 
stop the chemical attacks, the weapons of mass destruction, 
which are being applied to the people of that country?
    Mr. Singh. Well, thank you, Senator.
    In a way, yes, the chemical attacks are alarming; in part, 
not just because of the people they kill, but because they 
break the international taboo, which now has been thoroughly 
trodden on in Syria, against the use of chemical weapons in 
warfare. But, I think we have to acknowledge that sort of--it 
is not just the chemical weapons attacks; it is the barrel-
bombing, it is the deliberate targeting of civilians, 
hospitals, schools, and so forth. And I think that it is 
important that the Assad regime, Russia, which is complicit in 
this, as well, pay a price for what it is doing. The United 
States, I think, under President Trump, has undertaken a couple 
of strikes in response to chemical weapons. I think that is 
good, frankly. I think that practicing deterrence is necessary. 
But, it is probably not enough, at the end of the day. I think 
that exposing, especially, the complicity of other actors, like 
Russia, in these war crimes is important, and we have not done 
enough of that. And then ensuring that we have sanctions and 
other measures in place that can exact a price on these parties 
for what they have done is important, as well. And then, as we 
look to the future, there will need to be some process of 
accountability for what has happened.
    I will say, I think it is also important to keep that 
deterrence in place. There has to be at least that concern, in 
the back of the minds of the Assad regime forces, that we may 
be willing, with our international partners, to strike again, 
should they target civilians en masse.
    Senator Romney. Thank you.
    My time is actually up.
    Senator Murphy.
    Senator Murphy. Thank you, Mr. Chairman.
    Ms. Stroul, maybe wanted you to comment on something that 
Mr. Singh talked about, which is the effort to turn the STP 
into political partners, as well as military partners. It was 
striking to me that, for large periods of this conflict, while 
we had thousands of American soldiers on the ground, oftentimes 
we had one single State Department official on the ground. And 
we have had officials from START-Forward there, but they were 
withdrawn recently, and there are no plans to send them back. 
If we have learned anything over the course of the last 10 
years, we have learned that our military, however capable 
fighters they are, are not particularly good at achieving 
political reconciliation in the Middle East. And so, how do we 
resource our personnel in Syria to make sure that we are 
effectuating the kind of political cooperation we need? I just 
think we have to come to the conclusion that 20-year-old 
soldiers are not likely going to be the ones to be able to 
figure these difficult questions out. We have got to get some 
experienced diplomats on the ground.
    Ms. Stroul. Thank you, Senator.
    You will be pleased to know that the Syria Study Group 
agrees with you. There is an entire section on this exact 
issue. We attempted to shed light very much on the need for 
more--an increased civilian engagement in the areas where our 
military is working with the SDF. We highlight specific issues 
with governance. The SDF needs to do better at allowing NGO's 
to operate freely, to allow independent media to conduct 
whatever oversight in reporting and journalism it wants to. 
There are a lot of issues here.
    And one issue that I thought was great that we discovered 
in our consultations and briefings is that our U.S. military 
actually wants increased civilian engagement in northeastern 
Syria, so they would be happy to have more diplomats and more 
development practitioners and civilian experts working with 
them. Some elements of START-Forward have already returned. For 
sure, this platform needs to be expanded. The more civilians we 
can get in there, the better.
    Two things that can happen right now:
    One is, those civilians working on governance issues in 
northeastern Syria are under a stabilization set of activities, 
not the humanitarian activities. We need to turn our 
stabilizing assistance back on, both for our resource reasons 
and also from a leadership perspective.
    And, number two, there is a security issue here. So, we 
need to look at flexible ways in which our diplomats can work--
and our development experts--can work safely and security with 
the--with our military on the ground.
    Senator Murphy. I appreciated the focus of the report on 
that question.
    Mr. Singh, two Iran-focused questions for you:
    One, what are the outcomes measurements we should be 
looking at as we foresee the role that Iran would play in a 
politically settled Syria, right? What--obviously, we know we 
cannot expel their influence, so what do we look to as to 
decide whether they have too much impact and input versus 
right-sized impact and impact?
    And, two, I have heard some concerns that we are perhaps 
too hyperfocused on al-Tanf when thinking about preventing this 
land bridge through Syria. The expectation that by just 
controlling this, you know, one outpost, we are going to be 
able to stop the Iranians from moving people and goods through 
the country does seem to be a little farfetched. And so, speak 
to that concern, as well.
    Mr. Singh. So, on the second point, Senator, I guess all I 
can tell you is that I think U.S. officials and other officials 
around the region consider the U.S. presence at al-Tanf to be 
of strategic importance. I think, not just for blocking the 
land bridge, although it does play that role, to some extent, 
but also just for maintaining a kind of presence in that, sort 
of, swath of Syria which might otherwise be one where our 
adversaries would be able to do more than they are doing now. I 
would, I guess, encourage the committee to get a fuller 
briefing on that from U.S. officials who could go into more 
detail on it.
    On the question of what are the right metrics for Iran, I 
think it is a tough question. Iran has had influence in Assad's 
Syria for a very long time. And, I think, realistically, they 
are going to maintain that influence. I think it is right, 
though, to think that we certainly do not want to see Syria 
dominated by Iranian forces or Iranian proxy forces. You have 
seen a real uptick, as far as I can tell from the reports I 
have seen, in, say, Hezbollah's presence there, in the creation 
of new Iranian-backed militias in Syria. And so, to insist that 
if--you know, as part of some political settlement, foreign 
forces are required to leave, that those be included as foreign 
forces, I think, is entirely appropriate.
    In the near term, why--one of the reasons we focus on the 
Israeli action is, I think that at least we do not want to see 
Iran be able to turn Syria into sort of a forward military 
operating base, you know, to turn the Syrian-Israeli border 
into the kind of militarized border that the Israeli-Lebanese 
border is, for example, to forward-place missiles or missile 
factories in Syria. It is a--that is a more modest goal, but 
that is why we argue that it has to be approached in phases. 
Stop it from getting much worse, and then, as part of the 
political settlement, try to ensure that those forces they put 
there are forced to leave.
    Senator Romney. Thank you, Mr. Singh.
    Senator Shaheen.
    Senator Shaheen. I want to go back, I think, Ms. Stroul, to 
your comment. I think you said that some of the START-Forward 
team folks are beginning to move back into northeastern Syria. 
So, does the Study Group have an accurate--what you believe is 
an accurate understanding of the current status of our forces 
and the international forces in northeast Syria, and the 
stabilization funds in that area? And, if so, can you describe 
what that is?
    Ms. Stroul. We will do our best.
    As we understand it, there have been some security 
arrangements agreed upon between the Department of Defense and 
the Department of State to allow some elements of the START-
Forward team to go back into Syria for specific periods of time 
to do civilian engagement. The issue, going forward in 
expanding that platform, very much relies on security and also 
availability of funding to do the projects that we would--that 
would make sense to do if we are going to have a civilian 
element of engagement.
    Senator Shaheen. And when you say ``the funding,'' is that 
the stabilization funds that Congress has already appropriated?
    Ms. Stroul. Yes. So, Congress has appropriated, as you very 
well know----
    Senator Shaheen. And the administration has not spent----
    Ms. Stroul. Correct.
    Senator Shaheen.--and has put a hold on.
    Ms. Stroul. Correct.
    Senator Shaheen. Correct?
    Ms. Stroul. $200 million, yes. And when that $200 million 
was put on hold, there was an aggressive diplomatic effort to 
encourage other governments to provide funding for 
stabilization activities. Two--three governments that did that 
were the Government of Saudi Arabia, the Government of the 
United Arab Emirates, and the German government. A lot of that 
money will run out very soon.
    Senator Shaheen. So, one of the things that I am struck by 
in the report is that it says, and I am quoting here, 
``Throughout the Syria Study Group's briefings and interviews, 
no one argued that withdrawing U.S. troops would make ISIS less 
likely to regroup or Iran less likely to entrench itself.'' 
That is a quote.
    So, I just want to put myself on record again as saying I 
am one of those people who believes we need to leave the 
footprint that we have of United States troops in northeast 
Syria, that we need to provide the stabilization funds, that 
that is an important step for us to reassure all of those 
people who are with us in this fight that we are committed. 
And, as the Study Group points out, our leaving does not help 
with ISIS regrouping or Iran's presence there or Russia's 
presence there, it makes it more likely that we are going to 
totally cede influence in Syria to those actors who we have 
committed to try and get out of the area.
    So, that is a convoluted way of saying, I do not understand 
the current administration policy at all. And so, I very much 
appreciate what--the recommendations that you have in the 
report. And one of those, on page 48, is about Turkey and 
suggesting that one of the things that we could do, because 
Turkey is putting pressure on northeast Syria, on that border, 
as you all pointed out--that one of the things that we could do 
is to help encourage Turkey, who has legitimate issues with the 
PKK in Turkey that have been historic, but they had been 
working on those issues, and to encourage them to continue 
those peace efforts to try and provide for some reconciliation 
there. And I have actually had some conversations with Turkish 
leaders that have suggested they might be open to that. Can you 
tell me if we have tried to do any of that, and where--who 
might take the lead in trying to facilitate some of those peace 
talks or open--reopening those talks?
    Mr. Singh. So, I can speak to that, Senator Shaheen.
    I want to say one thing about your point about the 
stabilization funding and the military presence before I do, 
though, and that is to say I sympathize with the 
administration's desire to promote burden-sharing. And I think 
many people do. I am sure many people on this committee do. I 
think, though, the question is, How do you successfully do 
that? And I think the way you successfully do that is by 
providing some basic assurance to allies about some minimal 
level of U.S. commitment to being there----
    Senator Shaheen. Right.
    Mr. Singh.--and, I think, being there militarily, most 
importantly. And I think that helps, then in their domestic 
debates, our allies make the case that we, too, should 
contribute to this. I think that is a harder case for them to 
make when they cannot be sure if we are going to be there 
tomorrow. That is just a fact. I think you have to pair 
leadership with the request for burden-sharing.
    On the Turkey----
    Senator Shaheen. I agree.
    Mr. Singh. On the Turkey PKK talks, I think a lot of it 
boils down to the politics inside Turkey and where, for 
example, President Erdogan sees, sort of, his best, kind of, 
advantage, in terms of the political forces within Turkey. And 
exactly where that would stand right now, I do not have a good 
answer to. But, we do have people, you know, like Ambassador 
Satterfield in Ankara, like Jim Jeffrey, our Syria Envoy, like 
the folks at EUCOM, who are very much following this issue, I 
think, on top of this issue, and are--and have the 
relationships and the expertise to followup on it. And I have 
confidence, frankly, in Ambassador Jeffrey and Ambassador 
Satterfield and our folks on the ground that they agree with 
this and will be pushing this, as well.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Romney. Senator Kaine, you are going to be the last 
questioner today. And, following your questions, we will 
dismiss so that we can go vote.
    Senator Kaine. Great. Thank you, Mr. Chair.
    And I was going to ask questions about Turkey. And I 
appreciate Senator Shaheen doing it. Let me just ask a question 
about one topic.
    The--you used the phrase ``Dog's Breakfast'' group of--
groups in Idlib, and I wanted to come to that. So, we are--work 
primarily with the SDF, which the U.S. estimates is sort of 
split between Kurds and Arabs and Assyrians. And they have been 
very good partners for us. There are also anti-Assad elements 
that are not partners with us--ISIS and al-Qaeda. And so, they 
are anti-Assad, but we have been battling them because of their 
terrorist connections.
    What is your level of concern about the funding of those 
groups by Gulf State allies of ours? Is foreign funding of the 
terrorist groups in Syria still a problem? And there are not 
recommendations about how we deal with foreign funders of 
terrorism in Syria, but should we be concerned about that, or 
is that no longer a concern?
    Ms. Stroul. Thank you for that question.
    We should always be concerned about foreign funding for 
terrorist actors. As you know, the SDF and those partners are 
in northeastern Syria.
    Senator Kaine. Right.
    Ms. Stroul. They are not present in Idlib Province.
    Senator Kaine. Right.
    Ms. Stroul. And it is clear that both Haras al-Din and HTS 
are at Tahrir al-Sham, both present in Idlib process. One is 
more focused on galvanizing anti-Assad support, the other one 
sees the lack of a legitimate government in Idlib as a viable 
or fertile ground for external plotting. Right? External 
attacks both against the United States and our allies and 
partners. And clearly, that threat is of such a concern to the 
U.S. Government that Central Command has announced, in the past 
several months, two separate strikes on al-Qaeda in Syria 
leadership. So, we know that they are still there. And if they 
are as active, enough for CENTCOM to continue taking military 
strikes against them when it is possible, then they are still 
receiving foreign funding. And this, as I understand it, is a 
constant area of engagement between U.S. officials and all 
partners in the region. And it is not necessarily foreign-
government-funded, and a lot of this is about foreign 
governments tightening up their own domestic laws and learning 
the technical expertise to look at that--those monetary 
transfers and put technical----
    Senator Kaine. If the----
    Ms. Stroul.--barriers----
    Senator Kaine.--funding is not coming from foreign 
governments, but, instead, from individuals or groups within 
other nations, what is the sources--what are the nations that 
we have to be most concerned about and lean on to crack down on 
foreign funding of terrorist groups in Syria?
    Mr. Singh. I will say, Senator, my impression that is--is 
that a lot of these groups--I am sure there are foreign funding 
streams. I, frankly, do not have a lot of specific information 
on that to share with you. My impression, though, is that both 
ISIS and these groups in Idlib, because they have managed to 
take and hold territory--I mean, you know, Idlib is effectively 
controlled by HTS. And, to a lesser extent, you have got Haras 
al-Din and groups like that. But, that puts a lot of resources 
at their disposal that--you know, so they are less dependent on 
those outside sources of----
    Senator Kaine. I understand. But----
    Mr. Singh. Yes.
    Senator Kaine.--can you--in your consultation in writing 
this report, did you dig into the issue of to what extent these 
terrorist groups that are counter to the interests of the 
United States receive foreign funding? Was that something that 
you looked at or consulted----
    Mr. Singh. We did more for ISIS than we did for those 
groups in Idlib. And so, I would say that, for the groups in 
Idlib, the extent to which they are currently receiving foreign 
funding, I do not--I just cannot speak to that in any great 
detail.
    Senator Kaine. And then, how about ISIS?
    Mr. Singh. But, ISIS--I mean, our impression is that they 
are not very dependent at all on foreign funding, that, 
basically, by taking all that territory, robbing banks, you 
know, extorting citizens----
    Senator Kaine. Right.
    Mr. Singh.--and so forth, they built up a financial, kind 
of, you know, cash that they still, to some extent, have access 
to today, amazingly enough. And so, this is a concern, that 
they not only have those people inside prisons and elsewhere 
that could serve as the new core of a new ISIS, essentially, 
but they have the money, as well.
    Senator Kaine. All right, thank you.
    Thanks, Mr. Chair.
    Senator Romney. Thank you.
    Thanks, to our witnesses, for providing us with the benefit 
of your testimony, responses, and for this extraordinary Study 
Group Report that you provided to each of us. And I appreciate 
the work that has gone into it, and the effort that you all 
have made over such an extended period of time, and to your 
entire team for the work that has been performed. It is of 
great service to this committee, and hopefully to other members 
of the Senate, to our Foreign Relations Committee in total, but 
also to the administration.
    For the information of members, the record will remain open 
until the close of business on Thursday, including for members 
to submit questions for the record.
    And so, with thanks of the committee, the hearing is now 
adjourned. Thank you so much.
    [Whereupon, at 3:35 p.m., the hearing was adjourned.]

                                  <all>
</pre></body></html>
